Department of Homeland Security
   Ofﬁce of Inspector General

            FEMA’s Oversight and Management of 
 

                Debris Removal Operations 
 





OIG-11-40                                     February 2011
                                                               Office ofInspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                                                Homeland
                                                                Security
                                 FEB 2 3 2011

                                           Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses ofFEMA's management and
oversight of debris removal operations. It is based on interviews with employees and
officials of relevant federal, state, and local agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                        Matt Jadacki    ~-.
                                        Assistant Inspector General
                                        Office of Emergency Management Oversight
Table of Contents/Abbreviations

Executive Summary………………………………………………………………………. 1


Background……………………………………………………………………………….. 2


Results of Audit……………………………………………………………………………5

 Debris Planning............................................................................................................... 5
 
 

   Pilot Program Impact on Planning.............................................................................. 6 
 

   Contractor Management Challenges........................................................................... 7 
 

   The Impact of Debris Planning ................................................................................... 8 
 

   Conclusion .................................................................................................................. 8 
 

   Recommendation ........................................................................................................ 9 
 

   Management Comments and OIG Analysis ............................................................... 9
 
 


 Initiating Debris Operations.......................................................................................... 10 
 

    Educating Applicants Concerning Debris Removal Operations............................... 12 
 

    Initiating a Debris Removal Contract ....................................................................... 12 
 

    The Results of Problems in Initiating Debris Collection Operations ....................... 16 
 

    Conclusion ................................................................................................................ 17 
 

    Recommendations..................................................................................................... 17 
 

    Management Comments and OIG Analysis ............................................................. 18
 
 


 Conducting Debris Operations...................................................................................... 18 
 

   Debris Collection ...................................................................................................... 19 
 

   Debris Volume Assessment at Collection Sites........................................................ 21 
 

   Conclusion ................................................................................................................ 24 
 

   Recommendations..................................................................................................... 25 
 

   Management Comments and OIG Analysis ............................................................. 26
 
 


 FEMA Management and Oversight .............................................................................. 27 
 

   Management and Oversight Structure and Approach............................................... 28 
 

   Surge Capacity Is Crucial ......................................................................................... 29 
 

   Unclear and Ambiguous Guidance ........................................................................... 30 
 

   No Substitute for FEMA “Boots on the Ground”..................................................... 32 
 

   Delayed Project Closeouts Exacerbate Problems ..................................................... 33 
 

   Developing a Performance Measurement Framework ............................................. 33 
 

   Conclusion ................................................................................................................ 34 
 

   Recommendations..................................................................................................... 34 
 

   Management Comments and OIG Analysis ............................................................. 35 
 


Appendixes
  Appendix A: Purpose, Scope, and Methodology.......................................................37 
 

  Appendix B: Management Comments on the Draft Report ......................................38 
 

  Appendix C: Major Contributors to This Report ......................................................44 
 

  Appendix D: Report Distribution ..............................................................................45

Acronyms
  DAE                Disaster Assistance Employee
  DHS                Department of Homeland Security
  DR                 Disaster Declaration Number
  EMI                Emergency Management Institute
  FEMA               Federal Emergency Management Agency
  FY                 Fiscal Year
  GAO                Government Accountability Office
  IMAT               Incident Management Assistance Team
  OIG                Office of Inspector General
  PA                 Public Assistance
  TAC                Technical Assistance Contractor
OIG
 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
           The Federal Emergency Management Agency’s Public Assistance
           program has expended more than $8 billion over the past 11 years
           reimbursing applicants, primarily cities and counties, for removing debris
           resulting from natural disasters. In general, this has been a successful
           effort. Vast amounts of debris have been removed and disposed of,
           allowing communities to proceed toward recovery unencumbered by piles
           of debris. Better planning, contracting, and oversight of debris operations,
           however, could enable these operations to be conducted in a more cost-
           effective manner.

           Debris planning can allow communities to be better prepared for a disaster
           by identifying debris collection and disposal sites, identifying potential
           debris contractors, and preparing debris removal contracts in advance of a
           disaster. Only a minority of states and local governments currently have
           such plans in place. A pilot program that operated in 2007–2008 was
           successful in encouraging the development of debris plans, but momentum
           has been lost since the Congressional authority for the pilot program
           expired.

           Decisions made in the first few days after a disaster are critical in
           determining the success of a debris removal operation. Despite improved
           federal and state efforts to ensure that local governments are prepared for
           debris removal operations, they are often unprepared. Qualified Federal
           Emergency Management Agency staff, advising on debris removal, can
           help local governments determine what needs to be done, but they are not
           always available when needed. Debris removal operations are frequently
           more expensive than necessary and would benefit from improved
           monitoring.

           The quality of management and oversight remains a key element in
           success or failure of the program. While the Federal Emergency
           Management Agency has made significant strides in this area,
           opportunities remain for further improvement. Federal disaster response
           teams need to address debris expertise. Debris removal guidance is often
           unclear and ambiguous. Finally, an integrated performance measurement
           system would provide federal and state officials and stakeholders with the
           data and tools to measure, analyze, and improve debris operations.


             FEMA’s Oversight and Management of Debris Removal Operations 


                                        Page 1

Background
                 One of the key challenges following a major natural disaster is the proper
                 and timely management and disposal of disaster debris. Debris can
                 include waste soils and sediment, vegetation, construction materials, and
                 personal property, and can be commingled with a variety of hazardous
                 wastes. This debris can overwhelm existing landfills and present daunting
                 logistical challenges. The ability of residents to return and live in a safe
                 and healthy environment depends on the quality of the debris response.

                 The Federal Emergency Management Agency (FEMA), through its Public
                 Assistance (PA) program,1 provides funding and technical assistance for
                 debris removal, implementation of emergency protective measures, and
                 permanent restoration of eligible facilities and infrastructure. Detailed
                 requirements exist to determine eligibility of debris removal work for
                 federal reimbursement, but, in general, eligible activities must (1) be the
                 direct result of a presidentially declared disaster, (2) occur within the
                 designated disaster area, (3) be the legal responsibility of the applicant at
                 the time of the disaster, and (4) be in the public interest.

                 The primary responsibility for post disaster debris removal, including the
                 management of debris removal and monitoring operations, rests with the
                 affected states and communities. The capability to achieve this mission
                 varies greatly across the Nation and is largely a function of experience,
                 resources, and leadership at all levels. The state serves as the grantee for
                 PA grants while the county or city receives funds as a subgrantee. A
                 number of other entities, including federal agencies, private-sector
                 contractors, nonprofit and voluntary organizations, and the citizenry at
                 large all play key roles in removing disaster debris. Local governments
                 manage the debris collection process. They can either perform debris
                 collection work with local employees or use debris collection contractors.
                 If contractors are used, their work and charges should be monitored to
                 ensure the contract costs are eligible for FEMA funding and to reduce the
                 likelihood of waste, fraud, and abuse. Monitors can be local government
                 employees or can be provided by a monitoring contractor.

                 Any debris removal operation has three primary phases: planning,
                 initiation, and implementation. This report describes the major activities


1
 The Robert T. Stafford Disaster Relief and Emergency Assistance Act, P.L. 93-288, as amended, 42
U.S.C. § 5121 et seq. (Stafford Act) authorizes the FEMA Public Assistance Program to award federal
funding to state and local governments, federally recognized tribes, and eligible private nonprofit
organizations to assist them in their disaster response and recovery activities.



                    FEMA’s Oversight and Management of Debris Removal Operations 


                                                 Page 2

occurring in each phase, along with our observations regarding FEMA’s
performance in the management and oversight of each phase.

Debris planning consists of actions conducted by a state or locality in
advance of a disaster to prepare for an effective and efficient debris
removal effort. Elements of a sound debris plan include a clear definition
of roles and responsibilities of the major participants, an identification of
debris staging and final disposal sites, a process for handling various types
of vegetative and non-vegetative debris, a process for handling hazardous
waste, and at least two prequalified contractors to remove debris. Plans
should also address the roles of state, county, and municipal employees
who may be engaged to provide direct labor support.

Debris project initiation consists of activities conducted after the disaster
to start debris removal. These activities, which have significant financial
implications, may occur in a compressed and stressful period when search
and rescue operations are under way and the community is struggling to
provide basic services to citizens. Key activities in the initiation phase
include:

   •	 Organizing government and contractor resources and personnel;
   •	 Conducting preliminary damage assessments and estimates;
   •	 Preparing and executing competitively bid contracts for debris
      removal and monitoring; and
   •	 Developing management and operational protocols and processes.

The implementation phase consists of two primary work streams: debris
removal and debris monitoring. Debris removal is generally performed by
a combination of contractor and government personnel and equipment,
and consists of removing and disposing of vegetative and non-vegetative
debris in accordance with eligibility and procedural guidelines developed
by FEMA. Debris monitoring may be likewise performed by some
combination of contractor and government personnel and consists of
verifying the eligibility, volume, and basis for cost of debris removal and
disposal activities.




  FEMA’s Oversight and Management of Debris Removal Operations 
 


                             Page 3
 
 

                                                         Table 1. FEMA expenditures or
                                                         obligations for debris removal
                Removing debris is expensive; as    Fiscal
                table 1 shows, FEMA has             Year
                                                            Total Expended or Obligated for
                expended or obligated more than               Debris Removal($ millions)
                $8 billion to reimburse applicants    2000                           $206.9
                for eligible debris removal
                                                      2001                           $376.3
                activities for fiscal years (FYs)
                2000–2010. The costs of debris        2002                           $617.2
                removal are greater than              2003                           $212.6
                represented in the table since this
                                                      2004                           $233.3
                is the federal share. Most
                disasters require a 25% non-          2005                         $1,316.3
                federal (state and applicant) share   2006                         $2,461.2
                toward the full cost of debris
                                                      2007                           $753.9
                removal. However, under the
                Stafford Act there is flexibility     2008                           $266.7
                when the severity of the disaster     2009                         $1,347.3
                overwhelms the state, the             2010                           $209.6
                applicant cost-share can, with
                                                      Total                        $8,001.3
                Presidential authorization, be
                adjusted downward and in some cases can even be eliminated.
                The Post-Katrina Emergency Management Reform Act of 20062 directed
                FEMA to conduct a pilot PA program to reduce the overall cost of federal
                public assistance to state and local governments, increase grant flexibility,
                and expedite assistance to eligible state and local governments.
                Participation by state and local governments in the program was
                voluntary. The pilot program included four key debris-related provisions:
                    	 	 Provide grants on the basis of estimates for large projects up to
                         $500,000;
                    	 	 Provide an additional 5% federal cost share for applicants with
                         FEMA-approved debris management plans in place;
                    	 	 Allow applicants to retain the salvage value of recyclable debris;
                         and
                    	 	 Reimburse regular time salaries and benefits of permanently
                         employed staff performing debris-related activities.

                FEMA operated the pilot program from June 1, 2007, through December
                31, 2008 when Congressional authority for the pilot program expired.

2
 The Post-Katrina Emergency Management Reform Act of 2006 (P. L. 109-295), Title VI—National
Emergency Management, Department of Homeland Security Appropriations Act of 2007.



                   FEMA’s Oversight and Management of Debris Removal Operations 


                                              Page 4

Results of Audit

     Debris Planning
                 State and local governments are encouraged to plan for, and are
                 expected to manage, their own debris removal operations
                 following an emergency or major disaster, with eligible costs being
                 reimbursable under the PA program. As part of debris planning,
                 state and local governments are encouraged to prequalify local or
                 regional debris removal contractors to ensure the immediate
                 availability of coordinated debris removal support following a
                 debris-producing event. Federal, state, and local officials agreed
                 that another important element of debris planning and preparation
                 is identifying debris disposal sites in advance. By developing a
                 debris management plan, communities will be better prepared to
                 address disaster-related debris in a time-efficient manner, thereby
                 expediting the recovery process. Additionally, a sound and
                 properly executed debris management plan should enhance an
                 applicant’s ability to document its costs and reduce the time and
                 administrative burden of applying for PA grant assistance.




                 Figure 1. Nashville flooding, FEMA Disaster No. DR 1909 TN (Source: FEMA)

                 To assist state and local governments in developing a debris
                 management plan, FEMA provides training to state and local
                 officials. Only a minority of states, most of them in hurricane-
                 prone locations, currently have a plan in place. Most local
                 governments also do not have such plans in place. FEMA does not
                 determine whether a plan is approved or disapproved, as it did
                 during the pilot program. However, FEMA continues to review



            FEMA’s Oversight and Management of Debris Removal Operations 


                                       Page 5

     debris plans that are submitted to the regional offices. Regional
     and state officials said that confusion exists regarding FEMA’s
     role in approving plans, perhaps as a result of these changes.

     Pilot Program Impact on Planning

     FEMA’s pilot PA program included the provision of an additional
     5% federal cost share, not to exceed a total of 100%, to applicants
     having a FEMA-approved debris management plan and at least
     two prequalified debris and wreckage removal contractors
     identified prior to a disaster. To assist state and local governments,
     FEMA provided a debris management plan outline and the
     checklist that FEMA would use for plan approval. FEMA
     requirements did not include identifying disposal sites as part of
     the management plan’s content. Further, FEMA trained 3,409
     state and local officials in 21 states and three territories on the
     development of debris management plans in FY 2008 under the
     pilot program.

     Participating states said that having a debris management plan and
     prequalified debris contractors facilitated better-organized and
     managed debris removal operations. FEMA received feedback on
     the pilot program from regional, state, and local stakeholders, who
     said that the pilot program encouraged debris planning. The debris
     workshops and the increase in federal cost share provided
     incentives for states and localities to develop and maintain debris
     plans. One FEMA regional PA official described the mandated
     expiration of the pilot program as “the worst thing FEMA could
     have done,” noting that local jurisdictions were active in
     developing debris plans but lost interest when the program was
     terminated, and financial incentives and resources were withdrawn.

     A comprehensive debris management plan takes a significant
     amount of time to develop and implement at the local level. The
     planning provision of the pilot program was not widely used until
     later in the implementation phase; 180 of the total 234 project
     worksheets for planning were prepared during the last 4 months of
     the pilot program. Local officials said some FEMA regions were
     slow to process and approve the plans and many plans were,
     therefore, not approved during the pilot program. FEMA
     headquarters officials said that delays in approval were often due
     to the necessity for FEMA to work with some applicants to assist
     them in compiling a plan that would meet the criteria for approval.
     Additionally, many state and local officials said that they did not


FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 6

     have a major debris-generating event during the program, so they
     did not participate.

     Contractor Management Challenges

     Disaster planning and preparedness are essential in addressing
     disaster-related debris in a time-efficient manner. Also,
     prequalifying local or regional debris removal contractors ensures
     the immediate availability of coordinated debris removal support.
     These two elements assist communities not only in preparing for
     debris operations, but also in handling the large influx of potential
     debris contractors. These contractors arrive almost immediately
     after an event, often days or weeks before FEMA debris
     specialists. Without planning and FEMA debris policy knowledge,
     communities are not well prepared to control the contracting
     process.

     Certain contractors with experience in multiple disasters have
     learned how to “beat the system,” allegedly using FEMA logos on
     their personal items, making it appear that they are FEMA
     employees, and claiming to be “FEMA certified.” According to
     FEMA policy, FEMA does not recommend, pre-approve, or certify
     any debris contractor.

     Some contractors are adept at exploiting flaws in the system.
     Contractors were reported to “lowball” their bids and compensate
     by collecting ineligible debris, including debris well beyond the
     right-of-way, and even clear-cutting on public lands. Some
     contractors were reported to coordinate bids between companies.
     Others promote monitoring firms that are related to, or even owned
     by, their company.

     FEMA reimburses direct administrative costs incurred by grantees
     and subgrantees that are properly documented and directly
     chargeable for a specific project. This means that local
     governments can contract out the management of a debris removal
     project and be reimbursed at the cost-share rate established for the
     disaster declaration. Contractors promise local governments that
     they will maximize the money obtainable from FEMA and that all
     of the local government’s costs will be reimbursed if they are hired
     to handle all aspects of the debris operations. This presents an
     enticing arrangement for local governments because it is simple,
     and many local governments do not have the staff or funding to
     handle the operations on their own. As a result, administrative


FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 7

       costs can be disproportionately high as a percentage of total project
       cost. Several officials told us that administrative costs were
       “getting out of control.”

The Impact of Debris Planning

Tennessee was struck by severe storms, flooding, straight-line winds, and
tornadoes beginning on April 30, 2010, and continuing until May 18, 2010. DR
1909 was declared on May 4, 2010.




         Figure 2. Nashville flooding, FEMA Disaster No. DR 1909 TN (Source: FEMA)

The Metro Nashville Office of Emergency Management had rewritten its local
debris management plan, which included locations of staging and landfill sites, in
2009. A draft contract had already been prepared when the May 2–3, 2010,
flooding struck. The city sent the contract and plans to FEMA and the Army
Corps of Engineers and received comments within hours. As a result, a contractor
was in place within 3 days and debris removal started within 7 days after the
event. The result of their efforts was effective and efficient debris removal at a
reasonable cost.

       Conclusion

       Debris management plans help communities prepare for disaster-
       related debris removal and ultimately enhance the recovery
       process. To be effective, however, these plans need to identify
       critical elements of the debris removal process, including the
       prequalification of contractors and the identification of disposal
       sites. Such plans need to be reviewed and approved in a timely
       manner. FEMA regional offices have not been clearly in charge of
       this role and some did not approve plans in a timely manner under



  FEMA’s Oversight and Management of Debris Removal Operations 


                             Page 8

         the pilot program. Since the states are the grantees for FEMA
         debris funding, which is sub-granted to counties and cities, it
         would be appropriate for the states rather than FEMA to approve
         local government debris management plans. It is also likely that
         the states could do so in a timelier manner.


Recommendation
         We recommend that the Associate Administrator, Response and
         Recovery:

         Recommendation #1:

             •	 Provide a provision of an additional 5% federal cost share,
                not to exceed 100%, to applicants with a FEMA-approved
                debris management plan and at least two prequalified
                debris and wreckage removal contractors identified prior to
                a disaster.

             •	 Require disposal site identification to be part of the debris
                management plan.

             •	 Allow qualified states that have completed their own plan
                to approve local jurisdictions’ debris disposal plans.


Management Comments and OIG Analysis


         FEMA concurs with the first and second parts of the
         recommendation. The agency is considering revisions to its
         regulations that would incorporate an increased federal share
         initiative and would require PA applicants to identify debris
         management sites and final disposal sites in their debris
         management plans in order to qualify for the increased federal
         share. FEMA is still considering the third part of the
         recommendation and will evaluate a significant role for states in
         the review and approval of debris management plans.

         We agree with the initiatives FEMA is considering to improve the
         debris planning process. We will determine the status of this



    FEMA’s Oversight and Management of Debris Removal Operations 


                               Page 9

                   recommendation once we receive the detailed corrective action
                   plan in FEMA’s 90 day letter.


Initiating Debris Operations
                   The decisions made in the first few days after a disaster are critical
                   in determining how successful a debris removal operation will be.
                   However, such decisions are made at a time when decision makers,
                   primarily county and city officials, are fully occupied, if not
                   overwhelmed, by more immediate problems such as assisting
                   endangered residents, clearing access to hospitals and other vital
                   routes, and restoring electricity, water, and other critical services.
                   FEMA regulations allow for reimbursement of less restrictive time
                   and materials procedures during the first 70 hours after a disaster.
                   FEMA strongly encourages applicants to limit time and materials
                   contracts to the first 70 hours, because after that initial period
                   applicants should have enough data to competitively procure unit
                   price or lump sum debris removal contracts. Applicants that
                   choose to use time and materials contracts beyond 70 hours may
                   jeopardize their funding from FEMA. In order to be eligible for
                   reimbursement, applicants must satisfy PA eligibility criteria
                   throughout the entirety of the debris removal operation.

                   While local government officials repeatedly said how critical such
                   reimbursement is to their often cash-strapped governments, many
                   are not well prepared to comply with FEMA debris removal
                   regulations. Poor preparedness could lead to decisions that waste
                   significant amounts of funds, make part of debris removal
                   operations ineligible for FEMA reimbursement, or delay debris
                   removal.




              FEMA’s Oversight and Management of Debris Removal Operations 
 


                                         Page 10
 
 

     Figure 3. Missouri ice storm, FEMA Disaster No. DR 1403 MO (Source: FEMA)


     Despite significantly improved FEMA and state efforts to ensure
     that local governments are prepared for debris removal operations,
     many local governments are not well informed concerning the
     procedures they need to follow to establish economical and
     regulation-compliant debris removal operations. Their contracts
     with debris removal firms are critical to determine whether
     operations will be efficient, economical, and compliant with
     regulations. However, local governments can not obtain FEMA-
     approved contracts to use as a model because FEMA policy does
     not provide for approved debris removal contracts. Debris
     estimates, which are important to obtain lowest-possible-cost
     contracts, are sometimes not reliable. Qualified FEMA staff to
     advise on debris removal are often not onsite early in the project
     when they are needed to advise on initiating operations. Local
     officials said the debris removal program regulations are lengthy,
     complex, and difficult to master, and FEMA staff does not always
     provide a consistent interpretation of debris removal regulations.
     For example, this can be a problem when FEMA staff turnover
     results in local officials being told that the procedures that had
     already been approved are no longer acceptable. As a result, local
     governments often conduct debris removal operations that are not
     as economical as they could be and do not comply with
     regulations. Consequently, local funds and FEMA program funds
     are wasted on unnecessary or inappropriate debris removal
     expenditures, and local governments do not receive, or are directed




FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 11
 
 

     to return, FEMA funds to which they believed they would be
     entitled.

     Educating Applicants Concerning Debris Removal Operations

     FEMA and state officials emphasized that a key to effective debris
     removal operations is providing information and training to state
     and local governments prior to disasters. FEMA offers debris
     management courses at the Emergency Management Institute
     (EMI), and FEMA regional officials have conducted regional
     training for those unable to attend EMI courses. Local officials
     said these courses were helpful. Others said they had been able to
     attend FEMA regional disaster conferences, which were responsive
     to their needs.

     Many of the state disaster officials we interviewed said they also
     provide training at the state level in debris removal operations, and
     that FEMA is willing to participate in such training upon request.
     Several local government officials said their funding and staffing
     have been reduced in recent years and it is difficult for them to
     attend training conferences. Some said they had studied FEMA
     manuals concerning debris removal practices and FEMA policy;
     however, others are not prepared for the decisions they must make
     in the immediate aftermath of a disaster.

     Initiating a Debris Removal Contract

     While some local governments can conduct their own debris
     monitoring and debris removal efforts, many must rely on
     contractors, especially for larger disasters. In general, to be
     eligible for FEMA assistance, operations must be conducted under
     a contract that complies with FEMA requirements. To accomplish
     this, some states have initiated statewide contracts for debris
     removal and monitoring, others provide local governments with
     model contracts and have authorized pre-disaster contracting, and
     others provide local governments with a list of state-recommended
     contractors.

     In some states, however, local governments have none of these
     advantages when faced with initiating debris removal. Many have
     not developed a debris removal plan, do not have a contract ready
     to offer to bidders, and have had no prior contact with possible
     contractors.



FEMA’s Oversight and Management of Debris Removal Operations 


                          Page 12

     Figure 4. Dangerous debris situation (Source: FEMA)

     Local officials said they have had up to 90 contractors contact
     them in the immediate aftermath of a disaster. Some contractors
     travel to the disaster site and repeatedly contact local officials,
     encouraging officials to immediately contract with their firm.
     Others falsely claim to be FEMA certified or even FEMA related.
     Many offer to manage the entire disaster response operation and
     claim to be able to obtain the maximum amount of FEMA funding
     for disaster operations. Some not only offer to remove debris but
     also provide monitors to oversee their own efforts. In the face of
     such efforts, local governments need quick advice and assistance.

     In spite of these obstacles, most of the local officials we
     interviewed were able to get satisfactory contractors through a
     contracting process they considered acceptable. However, many
     have asked for a FEMA-approved standard contract to assist them
     in ensuring that their contracting was in full compliance with
     FEMA requirements. FEMA officials responded that it is not
     appropriate for FEMA to provide a preapproved contract. The
     local governments, not FEMA, are contracting with the debris
     removal and monitoring firms, and FEMA is not a party to the
     contract. However, FEMA will review contracts that local
     governments develop, and the Army Corps of Engineers (Corps)
     has several sample contracts available on its website. A city that
     used the contract review process said that both FEMA and the
     Corps provided comments on its proposed contract within hours of
     receiving it.



FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 13

     Debris estimating—assessing the total volume of debris that has to
     be dealt with before it is actually collected—is an art and science
     that is still developing. Results have been mixed, however.
     Officials in one county said while they had received an estimate of
     100 tons of vegetative debris that they used as the basis for
     soliciting proposals, the actual amount collected turned out to be
     450 tons. Had the competing contractors known that there would
     be so much volume, they might have submitted lower bids per ton,
     and both FEMA and the community would have realized
     significant savings.

     The rules governing debris removal and monitoring are lengthy
     and complex. The FEMA Debris Management Guide, FEMA P-
     325, covers all the major aspects of debris removal. The guide is
     149 pages long plus 92 pages of appendices. Some of the rules,
     such as those governing the eligibility of damaged trees (leaning
     trees and hanging branches), are complex and even confusing. A
     local government official faced with initiating debris removal
     operations in the wake of a disaster does not have the time to
     master all of these rules. And even those who have studied the
     guidelines find that some of their questions are not addressed.




     Figure 5. Leaning trees from FEMA Disaster No. DR 1682 WA (Source: FEMA)

     State and local officials described debris removal as a “gray area”
     in contracting and said some of the debris policies are ambiguous.
     Some unclear areas concerned the eligibility of tree removal or
     saving operations; assisting the elderly and disabled in getting their
     debris out to the curbside; what the allowable preference for local
     contractors can include; whether gated communities and areas
     without public roads, such as trailer parks, can be made eligible;
     and whether funding new landfills for dump sites is an eligible
     expense.



FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 14
 
 

              Figure 6. Removing an eligible hanging branch (Source: FEMA)

     State officials said that FEMA needs to do a better job of keeping
     all involved informed concerning new and evolving FEMA
     policies concerning debris removal. FEMA does provide a three-
     page fact sheet, “Debris Removal Applicant’s Contracting
     Checklist,” that can offer timely assistance in initiating a quick
     response, but it cannot cover all of the debris removal program’s
     rules and requirements.

     Qualified FEMA debris removal staff can be of great assistance in
     informing local officials of the FEMA rules and requirements and
     interpreting the more ambiguous requirements. In some cases,
     however, FEMA debris management specialists were not onsite
     until 3 or more weeks after the disaster, when contracts had already
     been awarded and contractors were hauling away debris. While
     some FEMA staff had arrived earlier, they did not have the
     necessary debris specialist skills. FEMA officials conceded that
     the FEMA staff who respond early to disasters, such as the
     Incident Management Assistance Teams, do not necessarily have
     adequate knowledge of debris removal rules, regulations, and
     procedures.

     Because the rules governing debris removal are lengthy, complex,
     and sometimes ambiguous especially when determining vegetative
     debris eligibility, different FEMA officials sometimes give local
     officials different interpretations of these rules. This can lead to
     debris removal actions that some FEMA officials had considered
     appropriate later being ruled inappropriate, and even to a partial
     loss of FEMA funding. Local officials reported that sometimes
     FEMA employees onsite cannot agree on the eligibility of a


FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 15

     procedure, such as removing a tree, and have to halt operations
     until a supervisor can be called to the site.

     In other cases, FEMA staff turnover at a disaster site, combined
     with the ambiguity of some of the rules, has resulted in a
     community being told that the procedures that had been approved
     were no longer acceptable and had to be changed. Perhaps of most
     concern to local officials, since it can lead to denial or return of
     funds, is when procedures that FEMA onsite officials have
     approved are later ruled unacceptable by FEMA regional officials,
     or by state or federal auditors.

     The Results of Problems in Initiating Debris Collection
     Operations

     Problems in initiating debris collection operations can lead to
     significant and costly problems during collection efforts, including
     the ineligibility of claimed costs and subsequent demands for
     repayment of federal funds. State and local officials said that some
     requests for proposals were issued that could have resulted in
     contracts allowing contractors to monitor their own performance.
     In one case, a debris collection contractor was allowed to hire its
     own subsidiary company as a debris monitoring contractor. In
     some cases, tree removal actions were either unnecessarily
     expensive or later found to be ineligible. In another case, state
     prisoners were used to help the elderly and disabled to get their
     debris out to curbside, and the cost of this assistance was
     disqualified.

     A review of 36 recent OIG audits of debris removal subgrantees,
     generally counties and cities, showed the wide range of adverse
     effects and possible requirements for repayment that can result
     from problems during the initiation of debris removal operations:

             	 	 In eight cases, contracts were awarded without having
                  been properly competed, or had major changes without
                  the required competition.
             	 	 In seven cases, tree removal operations (primarily
                  leaning trees and hanging branches) were improperly
                  conducted or accounted for.
             	 	 In five cases, ineligible debris, such as from private or
                  ineligible property, was charged under FEMA accounts.



FEMA’s Oversight and Management of Debris Removal Operations 


                          Page 16

                 	 	 In five cases, ineligible contracts, such as time and
                      materials contracts, were used after the first 70-hour
                      eligibility period.
                 	 	 In four cases, local governments charged ineligible
                      local employee expenses (regular or straight time as
                      opposed to the eligible overtime expenses) to FEMA.
                 	 	 In two cases, accounting was inadequate and/or
                      contractors had overbilled local governments, which
                      had passed the excessive charges on to FEMA.

         Conclusion

         Local governments need clear and consistent guidance governing
         the initiation of debris removal operations. Without such
         guidance, contracts can be awarded that result in higher costs to
         both the local government and FEMA, or can even result in
         communities having to return funds to FEMA. Debris collection
         rules and regulations need to be clear enough that state and local
         stakeholders can understand them readily and obtain consistent
         interpretations from FEMA officials. FEMA needs to continue to
         enhance ongoing training and outreach concerning debris
         collection rules and procedures, highlighting changes and new
         developments.


Recommendations
         We recommend that the Associate Administrator, Response and
         Recovery:

         Recommendation #2: To the greatest extent possible, provide
         applicants, FEMA employees, and other appropriate officials clear
         and unambiguous rules, guidance, and procedures for debris
         operations, including checklists and sample contracts.

         Recommendation #3: Work with the states to provide a variety of
         readily accessible training concerning rules, guidance, procedures,
         and recent developments in debris removal, contracting, and cost
         containment.




    FEMA’s Oversight and Management of Debris Removal Operations 
 


                               Page 17
 
 

     Management Comments and OIG Analysis
            FEMA generally concurs with both of these recommendations, but
            does not agree that providing sample contracts is appropriate.
            FEMA officials fear that doing so may create a false expectation of
            reimbursement of costs even if applicants fail to follow
            competitive bidding procedures, the work performed is ineligible,
            or the contract is not monitored effectively. In addition, FEMA
            officials note that they are not able to account for the varying
            procurement requirements among states and localities. FEMA is
            committed to continue providing guidance for debris operations;
            the debris estimating and monitoring guides have just been issued,
            and the Debris Management Guide is being revised. FEMA is
            continuing to make training available and is currently developing a
            computer-based training course on debris management plan
            development.

            We agree with the steps FEMA has taken and is taking to provide
            guidance and training concerning debris operations. We
            acknowledge FEMA’s concern with providing sample contracts
            and, in light of the new guidance that has been issued, we will
            reevaluate this portion of our recommendation. We will
            determine the status of these recommendations once we review the
            detailed corrective action plan in FEMA’s 90 day letter.


Conducting Debris Operations
            Debris removal operations, as categorized by FEMA, occur in two
            phases: (1) initial debris clearance activities necessary to eliminate
            life and safety threats and (2) debris removal activities as a means
            to recovery. The initial debris clearance is an immediate post
            disaster effort that is frequently conducted by state and local
            employees and volunteers, but can also be conducted by
            contractors. The subsequent debris removal operations constitute
            the bulk of FEMA-funded activities. Extensive FEMA rules and
            regulations govern these efforts, and millions of FEMA dollars are
            expended in even the smaller categories of disasters. The vast
            majority of funds are expended on contracted firms that collect
            debris, haul it to staging areas, and subsequently remove debris
            that has been processed and sorted by type to landfills and other
            sites.




       FEMA’s Oversight and Management of Debris Removal Operations 


                                 Page 18

     Other debris removal, frequently conducted by the same
     contractors, includes removing hanging branches and hazardous
     leaning trees. These operations are customarily reimbursed on a
     unit price basis (as are “white goods” such as refrigerators) and
     also constitute a major expense category in debris removal
     operations. The third major expense is for monitoring. Monitors,
     either local government employees or employees of a monitoring
     contractor, oversee a contractor’s collection operations and the
     volume (and hence eligibility for payment) of the debris that
     contractors’ trucks haul to collection or disposal sites.

     Most of the officials reported that debris is normally collected in a
     timely manner, enabling communities to proceed with recovery
     efforts. However, debris collection and monitoring efforts are
     often costly and many contractors are overpaid. Changes in
     FEMA policies could improve the cost-effectiveness of the debris
     removal program and make the program easier for local officials to
     manage.

     Debris Collection




     Figure 7. Nashville flooding, FEMA Disaster No. DR 1909 TN (Source: FEMA)

     To be eligible for FEMA-funded collection, debris must be the
     result of a presidentially declared disaster, located within the
     disaster area on the eligible applicant’s (usually a city or county)
     improved property or right-of-way, and the legal responsibility of
     the applicant. FEMA allows applicants to charge FEMA for
     collecting debris from private residences if debris has been brought
     to curbside or is otherwise placed on the local government’s right-



FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 19

     of-way. Debris brought to the curbside in gated communities,
     trailer parks, or other communities where the streets do not have
     city or county right-of-way status does not qualify for collection
     except in cases where removal is necessary to provide access for
     emergency vehicles.




     Figure 8. Nashville flooding, FEMA Disaster No. DR 1909 TN (Source: FEMA)


     Some contractors, in order to increase their payments under their
     debris removal contract, will collect ineligible debris, such as
     debris not located on the right-of-way, and haul it to the collection
     site for payment. This can happen at any time, but it is more likely
     to occur as the recovery effort is winding down and eligible debris
     is less plentiful. We were told of cases where contractors had even
     gone onto state lands or into neighboring counties or parishes to
     collect ineligible vegetative debris. Some contractors, who are
     paid for the mileage their trucks accumulate during the operations,
     have also been accused of putting on unnecessary miles, and even
     of driving in circles. Monitors can prevent or report such ineligible
     debris collecting and mileage, but only if they are present at the
     time of the collections. It is expensive to have an individual in
     every one of the contractor’s trucks, as some communities have
     done. Also, FEMA officials have advised that “debris monitors
     should never be in a debris removal contractor’s truck”.




FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 20
 
 

     Figure 9. Debris-monitoring tower, FEMA Disaster No. DR 1791 TX (Source:
     FEMA)

     Local government officials said that the eligibility rules for
     collections can appear inequitable to their constituents and difficult
     to enforce. For example, residents of trailer courts, gated
     communities, and other less accessible communities may not
     receive the same level of debris removal services as more
     accessible locations. Elderly and disabled residents who cannot
     haul debris to curbside may miss out on FEMA-reimbursed debris
     removal services.

     The rules governing leaning trees and hanging branches are
     complex and difficult to interpret. We were told that some
     contractors make unnecessary multiple cuts on a damaged tree to
     increase their payments. It was also alleged that during one recent
     disaster, a contractor cut hundreds of ineligible trees and claimed
     them for reimbursement. Tree operations are frequently a source
     of disputes between applicants and FEMA, and even FEMA
     employees may not agree on eligibility.

     Debris Volume Assessment at Collection Sites

     FEMA officials said most of the excessive costs in the debris
     program are the result of overstated volumes of collected debris.
     Most debris collection is paid for on a volume basis. The
     following occurs at the collection site:
          • The contractor’s trucks arrive at a collection site.


FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 21

           •	  A monitor (usually located in a monitoring observation
              tower at the debris management site) assesses what
              percentage of the truck’s volume is full of debris.
           •	 This percentage is then multiplied by the truck’s declared
              maximum volume (as previously certified and announced
              on a placard on the side of the truck) to determine the
              volume of debris to be credited for the load.
           •	 This amount is noted on a load ticket.
           •	 Copies of the load ticket are given to the truck driver and
              to accounting.




     Figure 10. Unloading vegetative debris, FEMA Disaster No. DR 1909 TN (Source:
     FEMA)

     Problems arise because load tickets often go through many hands
     as they are routed from the debris disposal site to the applicant. A
     recent DHS investigation determined that four individuals from a
     debris-monitoring company conspired to falsify debris load tickets,
     causing FEMA to pay more than $700,000 in fraudulent costs.

     FEMA, state, and local government officials all have monitoring
     responsibilities, but the applicant has the primary responsibility.
     Officials from all of these organizations said there are numerous
     ways to cheat this volume-based system. Some contractors put
     false bottoms in their trucks after the load capacity has been
     certified to overstate credited volumes. Contractors switch or alter
     placards to make it appear that the truck was certified for a larger
     volume than was actually the case. A former debris contractor
     employee reported that he had witnessed trucks being issued
     fraudulent load certificates.



FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 22
 
 

     Monitors may overstate the percentage load of trucks entering the
     staging area or landfill. This can occur because of a need for
     training or capability on the part of the monitor, intimidation of the
     monitor by the debris hauler, or collusion between the monitoring
     company and the hauling company. These factors can overstate
     volume estimates by 20% or more. That this is occurring can be
     shown by the fact that the volume percentages assessed are
     frequently lower whenever the operation is observed by state,
     local, or federal employees than when only the truck drivers and
     monitors are at the site.

     One experienced state official said when he was working as a
     temporary employee in an out-of-state disaster, he observed that
     237 trucks in succession had been recorded as 100% full prior to
     his arrival at a busy monitoring tower. While he was personally in
     the tower, the monitors recorded loads at 60% to 70%; after he left,
     the load assessments went back to 100%. This official took photos
     and measurements at the dump sites and landfills and came up with
     lower percentages than the monitors. He also said that towers
     sometimes remained unoccupied for up to 45 minutes.

     Another official reported he had seen trucks consistently being
     rated as being 80% or more full when they “were not nearly that
     full.” He said that two colleagues also witnessed similar incidents.
     A FEMA after-action report for Hurricanes Gustav and Ike
     estimated that FEMA may have overpaid $20 million for debris
     removal and disposal because qualified monitors were not present
     at key times and debris load volumes were consequently
     overestimated.

     Federal, state, and local officials reported that options are available
     for reducing these problems. One state’s officials said they “do not
     ever” contract for monitoring services; instead they use local
     employees who are perceived as less vulnerable to intimidation or
     collusion. In states that use private sector monitoring firms,
     government officials need to ensure that monitors are competent,
     properly trained, and aware of their rights and responsibilities.

     FEMA, state, and local officials could oversee all aspects of debris
     operations to minimize fraud and excessive charges. The problem
     here, of course, is cost. Monitoring costs in operations we
     reviewed ranged from 20% to 33% of the total cost of debris
     operations. Other reviews have reported monitoring costs of as


FEMA’s Oversight and Management of Debris Removal Operations 


                          Page 23

     much as 50% of total debris costs. Having enough FEMA, state,
     or local officials present to monitor the monitors increases the
     direct cost of oversight even more. In such cases, oversight may
     cost more than the operations being overseen.




     Figure 11. Truck scale in action (Source: FEMA)

     Conclusion

     Debris removal is generally performed effectively and in a timely
     manner, but not necessarily at the lowest possible cost. Debris
     monitoring presents opportunities for improvement, as current
     methods leave FEMA and its applicants vulnerable to potential
     waste, fraud, and abuse.

     The effectiveness and integrity of monitoring activities could be
     improved by having local governments perform monitoring,
     especially if they are sharing in collection costs. This could be
     funded by authorizing FEMA payment for force account labor as
     was done under the pilot program. Paying for local government
     employees to address leaning trees and hanging branches could
     also provide a more secure, lower cost approach to handling these
     potentially complicated and difficult-to-control efforts.

     If contracted monitors are used, local officials must ensure that the
     monitoring company does not have an inappropriate relationship
     with the debris collection contractor, and that monitors are
     qualified, trained, and accurate. FEMA should ensure that in cases
     where the federal government is reimbursing 100% of all debris



FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 24

         costs, additional federal oversight is in place, since the incentives
         for local oversight have been diminished.

         One option for reducing collection and monitoring costs is to pay
         contractors based on the weight of debris collected rather than
         volume. Trucks could be weighed on truck scales when they arrive
         at the collection site and again when they depart, with the
         difference being an accurate measure of the weight of the debris.
         Local officials reported that this system worked well and that truck
         scales could be rented easily and at a reasonable cost for the period
         that collection centers were operating. No system is totally
         foolproof. Drivers could still inflate debris weights by wetting
         down the debris prior to taking it to the collection site or even by
         adding gravel, but these actions should be apparent at the
         collection site.

         Making weighing systems the basis of an automated load ticket
         accounting system could further reduce the possibility of fraud and
         result in improved and better controlled accounting systems for
         debris collection costs.


Recommendations
         We recommend that the Associate Administrator, Response and
         Recovery:

         Recommendation #4: Provide force account labor reimbursement
         to cover local governments’ costs of employing workers to monitor
         debris collections and to remove leaning trees and hanging
         branches, and encourage them to undertake such responsibilities.

         Recommendation #5: Strengthen the requirements involved in
         monitoring contracts to ensure that no relationships exist between
         debris collection contactors and monitoring contractors, and that
         monitors are properly trained and capable of independent and
         accurate performance.

         Recommendation #6: Explore advanced technologies to
         supplement monitoring staff such as GPS in trucks or surveillance
         cameras.

         Recommendation #7: Assess weight-based rather than volume-
         based payment for debris collection and investigate whether such


    FEMA’s Oversight and Management of Debris Removal Operations 


                              Page 25

         systems could be efficiently linked to debris payment accounting
         systems.


Management Comments and OIG Analysis
         FEMA generally concurs with all of these recommendations, but
         notes that the Agency is not a party to contracts between applicants
         and contractors. Therefore, the Agency cannot require the use of
         advance technology as monitoring tools. FEMA acknowledges
         that weight-based monitoring and payment systems have some
         advantages over volume-based systems, but said these are not
         immune from potential waste, fraud, and abuse and still require
         proper monitoring and oversight to be effective. FEMA is
         considering revisions to its regulations that would incorporate the
         force account straight time labor reimbursement component of the
         PA Pilot Program. FEMA is updating its guidance in both the
         Debris Contracting Guidance Fact Sheet and the Debris
         Monitoring Guide to stress that debris monitors should not have a
         relationship with debris removal contractors. FEMA stays abreast
         of current technologies in order to provide appropriate technical
         assistance to applicants when they are considering technology
         applications as part of their monitoring operations. FEMA also
         can provide appropriate funding, such as for the rental of
         temporary scales, during debris operations.

         We agree with the steps that FEMA is taking to improve the
         conduct of debris operations. We understand that FEMA is not a
         party to contracts between applicants and contractors and cannot
         require the use of advance technology as monitoring tools.
         However, FEMA can encourage the use of cost-effective advance
         technology for monitoring, such as weight-based monitoring and
         payment systems, by publicizing and encouraging the use of these
         systems including offering financial incentives. We will determine
         the status of these recommendations when we receive the detailed
         corrective action plan in FEMA’s 90 day letter.




    FEMA’s Oversight and Management of Debris Removal Operations 
 


                               Page 26
 
 

          FEMA Management and Oversight
                           FEMA’s management and oversight of debris operations is subject
                           to many of the overall challenges associated with managing the
                           complex and geographically diverse Public Assistance program.
                           For example, our December 2009 report3 concluded that the
                           implementation of FEMA’s PA program was hindered by untimely
                           funding determinations, deficiencies in program management, and
                           poorly designed performance measures. The report identified
                           opportunities for improvement in a number of areas relevant to
                           debris removal operations:
                               	 	 Inconsistent and tardy eligibility determinations
                               	 	 Inaccurate costs and scopes of work in initial project
                                    worksheets
                               	 	 Undue delays and deferrals in making decisions regarding
                                    cost overruns and scope changes prior to closeout
                               	 	 Insufficient detail regarding scopes of work
                               	 	 Inappropriate negotiations with subgrantees on eligibility
                               	 	 Failure to accept subgrantees’ supporting documentation
                               	 	 Repetitive documentation requests
                               	 	 Unreasonable cost estimates

                           The report concluded that these program management deficiencies
                           are caused principally by turnover, inexperience, and lack of
                           training within FEMA’s disaster workforce. We reported that
                           these capability gaps are exacerbated by the need for a clear and
                           consolidated body of PA guidance, and highlighted debris issues
                           specifically in the following summary:

                           FEMA’s policy on debris removal is unclear and thus open to
                           interpretation. As a result, some communities have been denied
                           eligibility for debris removal costs, while others have received
                           reimbursements for identical costs. About $180 million in debris
                           removal costs after the 2004–2005 disasters in Florida
                           demonstrate the significance of clarifying the debris removal
                           policy.



3
    Assessment of FEMA’s Public Assistance Program Policies and Procedures, OIG-10-26, December 2009.



                      FEMA’s Oversight and Management of Debris Removal Operations 
 


                                                 Page 27
 
 

     Our current review confirmed some of these earlier observations
     but also identified additional opportunities for improvement in
     management and oversight of the debris program.

     Since large-scale debris events are fortunately rare, plans, systems,
     and processes cannot be easily tested in a “real-time” environment.
     Many of our observations and findings regarding FEMA’s
     management and oversight of debris operations reflect the
     perceptions of frontline personnel and have not been validated in
     an actual debris-generating event.

     Management and Oversight Structure and Approach

     FEMA manages and oversees debris operations through multiple
     components, including a headquarters policy office, 10 regional
     offices, and disaster-specific field command organizations.

     FEMA’s Public Assistance Division, Policy and Regulations
     Branch, in Washington, DC, develops and oversees the
     implementation of the full range of policies and regulations. Two
     employees in this branch work exclusively on debris removal
     policies and regulations. Branch employees also develop training
     materials for use nationally to create awareness and understanding
     of current and emerging debris management issues. Headquarters
     staff occasionally deliver this training in person or in coordination
     with FEMA regional staff.

     A Debris Task Force is appointed for each major disaster. The
     Task Force is based at the Joint Field Office and comprises a
     Debris Team Leader, one or more Debris Technical Specialists,
     and one or more Debris Monitoring Specialists. The Task Force
     often includes personnel from other federal and state agencies. It
     is charged with establishing a framework for FEMA assistance for
     debris operations and creating a historical record. It also creates a
     specific debris strategy for major events. We reviewed the strategy
     documents for Hurricane Ike and the 2010 central Tennessee
     floods, and they were comprehensive and actionable.




FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 28
 
 

     Although FEMA regions normally send one or two permanent,
     full-time employees to an event (who may include debris
     specialists from another FEMA region), most of the Debris Task
     Force is comprised of FEMA disaster assistance employees
     (DAEs). As one FEMA regional official told us, “The DAEs do
     the heavy lifting.” Problems arise since DAEs are not always
     debris specialists, whereas applicants depend almost solely on their
     advice. Regional officials said the DAE debris expertise is thinning
     due to turnover and burnout.

     Surge Capacity Is Crucial

     As discussed earlier, decisions made in the first few days after a
     disaster are critical in determining the success of a debris removal
     operation. This decision making takes place at a time, however,
     when state and local officials, the primary decision makers, are
     overwhelmed by more immediate problems such as assisting
     endangered residents, clearing access to hospitals and other vital
     routes, and restoring electricity, water, and other critical services.

     The consensus among regional, state, and local officials
     interviewed is that FEMA must do a better job of providing rapid
     and sufficient surge resources with the capability, skills, and
     authority to drive key initiation and early implementation
     decisions. As the entity that funds from 75% to 100% of eligible
     debris removal costs, FEMA has a vested interest in ensuring
     optimal decision making and project control. Further, given the
     complex web of organizations that have a role in a typical
     disaster—state and local government agencies, other federal
     agencies, private sector contractors, nonprofit organizations, and
     voluntary organizations—there is no substitute for clear, focused
     leadership.

     If FEMA cannot deliver the needed technical expertise, the odds
     increase that costs and eligibility of debris removal will become
     problematic during the recovery phase of the disaster.
     Communities may be forced to evaluate and select debris removal
     and monitoring contractors without possessing the necessary
     expertise or familiarity with FEMA contracting guidance and
     requirements.




FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 29
 
 

                          An effective surge can help mitigate the impact of a lack of pre-
                          disaster debris planning. Cedar Rapids, IA, for example, did not
                          have a debris plan in place prior to major spring flooding in 2008,
                          but the debris removal operations went well. A key was the direct
                          technical consulting support for the grantee and subgrantees before
                          contracts were awarded. A joint team of FEMA and Iowa
                          Homeland Security debris specialists assisted in this effort. FEMA
                          Region VII staff said “getting in early” is the key to helping
                          communities determine whether contactors are providing
                          reasonable cost estimates.

                          Unclear and Ambiguous Guidance

                          Many officials expressed frustration over unclear and ambiguous
                          debris regulations and policies, which hinder effective debris
                          removal and disposal, and create misunderstanding and distrust
                          between FEMA and state and local governments.

                          This ambiguity stems not from a lack of effort by FEMA—in fact,
                          the current Public Assistance Debris Management Guide4 is over
                          200 pages including appendices, and covers eligibility, planning,
                          and operations in some depth—but rather from the complexity and
                          inherent uncertainty of debris removal and disposal.             The
                          interpretation of how to apply a particular regulation for a specific
                          debris occurrence varies greatly depending on who is doing the
                          interpreting. The consequences for FEMA and the grantees can be
                          profound, with audits disallowing millions of dollars of costs that
                          FEMA personnel authorized earlier.




4
    FEMA Public Assistance Debris Management Guide, FEMA-325, July 2007.



                     FEMA’s Oversight and Management of Debris Removal Operations 


                                               Page 30

              Figure 12. Examples of recent debris-related FEMA publications

                              One state emergency management office we interviewed was in
                              the process of responding to a request to repay millions of dollars
                              for debris removal costs from a 2002 ice storm. This office, with a
                              PA staff of three, said debris removal was “the biggest gray area in
                              contracting” and “the toughest nut to crack—a constant source of
                              headaches for us.” This office reported that its applicants had
                              “passed every decision through layers of FEMA approvals” at the
                              time the original disaster cleanup was under way, and it was only
                              informed years later that certain vegetative debris removal was
                              ineligible for reimbursement.

                              Several applicants have encountered problems with tipping fees.5
                              FEMA reimburses tipping fees to compensate applicants for the

5
    Tipping fees are fees that landfills charge to cover their operating and maintenance costs.



                        FEMA’s Oversight and Management of Debris Removal Operations 


                                                     Page 31

                           diminished capacity of a landfill resulting from the disposal of
                           disaster-generated debris. FEMA disallowed $7.7 million in
                           tipping fee charges in an Alabama county based on the argument
                           that the applicant based tipping fees on the volume of raw
                           vegetative debris instead of the diminished volume of burned
                           debris. FEMA challenged tipping fees in a Tennessee county
                           because different rates had been applied for in-county and out-of-
                           county debris removal contractors per the county’s customary
                           practice. We reviewed the latest FEMA guidance and found only
                           two limited references to tipping fees; neither addressed the above
                           issues.

                           Recent controversies in Kentucky and New York have centered on
                           the appropriateness of debris removal costs; in both cases FEMA
                           disputed the costs paid to contractors for debris removal even
                           though the costs were arrived at through competitive bidding.
                           While competitive procurement usually establishes that the debris
                           removal rates are reasonable, it does not establish that a contractor
                           removed only eligible debris. Nor does it ensure that proper
                           documentation exists to substantiate an applicant’s claim.

                           No Substitute for FEMA “Boots on the Ground”

                           There is widespread agreement among state and local officials that
                           a visible FEMA presence at a disaster site has a direct impact on
                           reducing fraud and abuse. A commonly cited example involves
                           load calls from debris monitors in towers. Debris specialists and
                           public assistance officials said when no FEMA employee is
                           present, incoming trucks are virtually all recorded at or near 100%
                           capacity, but as soon as a FEMA employee or official
                           representative is in the tower, the load calls drop to 60% to 70%.
                           These anecdotal observations were supported by findings from a
                           FEMA after-action report:

                                   During the early stages of this disaster, the limited
                                   availability of DAEs and TACs [Technical Assistance
                                   Contractors] prevented FEMA from manning the debris
                                   towers. Due to this applicant monitors made higher calls.
                                   This resulted in a 15 to 20% increase in debris costs
                                   statewide. Most of the calls were between 90 to 100%. If
                                   available personnel could be quickly deployed FEMA
                                   would have saved $20 million on this disaster alone.6

6
    FEMA Remedial Action Issue 1791-I-47, Event # 1781-DR-TX, Texas Hurricane Ike, March 31, 2010.



                      FEMA’s Oversight and Management of Debris Removal Operations 
 


                                                 Page 32
 
 

                           Delayed Project Closeouts Exacerbate Problems

                           A key debris management and oversight issue is the need to
                           estimate, scope, and close out projects appropriately and timely.
                           Numerous officials reported that waste, fraud, and abuse tend to
                           multiply toward the end of debris projects, when the debris mission
                           starts winding down and contractors become “more creative in
                           filling their trucks.” This is a theme that cuts across all PA
                           program areas and has been addressed by us, the Government
                           Accountability Office (GAO), and others. Our recent report7
                           identified a number of recommendations for closing out disasters
                           more promptly and efficiently.

                           Developing a Performance Measurement Framework

                           Although FEMA spends hundreds of millions of dollars a year to
                           support, plan, and implement debris removal programs across the
                           country, there is no integrated performance measurement
                           framework to manage and provide oversight over this complex
                           activity. A contractor has been hired to develop an improved
                           tracking system. Ideally, program managers would have access to
                           information to measure, analyze, and improve program
                           performance. An integrated performance measurement system
                           would enable managers to compare performance in different
                           regions, under different scenarios, to provide fact-based
                           information to partners and stakeholders regarding costs,
                           contractor and partner performance, effectiveness, efficiency, and
                           other factors determined to be important to future decision making.

                           The need for a performance measurement framework surfaced at a
                           number of states and localities. Officials said it would be helpful
                           to have historical and comparative cost data to assist in the
                           evaluation and selection of debris removal and monitoring
                           contractors. FEMA is working with a contractor to develop a cost
                           model database that states and communities can use to compare
                           prices of specific items, which will make the market for debris
                           removal and monitoring services more open and transparent.

                           Another area where better data is needed involves comparing the
                           use of local government employees with the use of contractors to
                           perform various activities. Many officials believe that the overall
                           cost of debris removal and monitoring would be reduced by using

7
    Opportunities to Improve FEMA’s Disaster Closeout Process, OIG-10-49, January 2010.



                      FEMA’s Oversight and Management of Debris Removal Operations 


                                                 Page 33

         local government employees and reimbursing municipalities for
         this direct labor cost for a limited period.

         Conclusion

         The quality of FEMA’s management and oversight, especially
         following major disasters that overwhelm local capacity, is perhaps
         the key element in the success or failure of debris operations.
         Debris events are complex and involve multiple private and public
         sector entities working together in an often chaotic post disaster
         environment. FEMA has made significant strides toward
         improving its management and oversight capacity, but
         opportunities remain for further improvement. These opportunities
         involve the staffing, structure, and design of key management and
         oversight activities. Debris expertise is not always clearly evident
         in FEMA’s early response teams assigned to a disaster. FEMA
         personnel may not always be positioned in locations to optimize
         their oversight and control functions. Debris guidance is at times
         incomplete, unclear, or ambiguous despite FEMA’s attempts to
         address all aspects of debris removal. A more principles-based
         rather than rules-based regulatory framework that allowed for
         increased local decision making could be an improvement over the
         present system. Finally, an integrated performance measurement
         framework would give FEMA and its stakeholders data and tools
         to measure, analyze, and improve debris operations.


Recommendations
         We recommend that the Associate Administrator, Response and
         Recovery:

         Recommendation #8: Modify disaster assistance employee
         deployment processes to ensure that Incident Management
         Assistance Teams and other FEMA first responders include one or
         more debris specialists with the experience and management skills
         to assist communities in the crucial early stages of planning and
         implementing debris removal activities.




    FEMA’s Oversight and Management of Debris Removal Operations 
 


                               Page 34
 
 

      Recommendation #9: Continue to refine cost data to determine
      whether having qualified FEMA or local personnel present in all
      debris towers, major staging areas, and on the ground as roving
      monitors during significant debris-generating events would be
      cost-effective.

      Recommendation #10: Develop a performance measurement that
      FEMA headquarters and regional personnel can use to measure,
      analyze, and improve debris program performance. This should be
      designed for easy analysis of cost and performance data across
      regions, disasters, and contractors.

Management Comments and OIG Analysis
      FEMA generally concurs with Recommendations #8 and #10 but
      does not concur with Recommendation #9. FEMA supports the
      intent of Recommendation #8 but believes the way to address this
      issue is to ensure that there are adequate numbers of experienced
      employees in the disaster workforce, rather than modifying the
      deployment process. FEMA will continue its efforts to increase
      the size of its resource pool and speed the deployment of technical
      expertise to support applicants during the early stages of planning
      and implementation of debris removal operations.

      With regard to Recommendation #9, FEMA considers its current
      monitoring program to be the most prudent use of FEMA’s
      resources and taxpayer dollars and believes it avoids unnecessary
      duplication of effort. Due to applicants using different monitoring
      strategies, FEMA believes it is difficult to determine the cost
      savings and would likely prevent the performance of a conclusive
      analysis of the cost-effectiveness of an increased monitoring
      presence as compared to FEMA’s current approach.

      For Recommendation #10, FEMA agrees with the need to develop
      a performance measurement system, with cost and performance
      data, to measure, analyze and improve debris program
      performance. FEMA is currently developing a Quality
      Assurance/Quality Control tool that provides a framework to
      measure quality and performance throughout the entire PA
      program. In addition, FEMA has worked to improve debris
      estimating and to develop automated or digital systems that will
      improve the collection of debris data in the field. FEMA is
      currently working to develop a cost database of unit price debris



 FEMA’s Oversight and Management of Debris Removal Operations 


                           Page 35

     removal costs to assist PA staff and applicants when determining
     whether or not a cost is reasonable.

     We agree with the actions FEMA has taken and is taking to
     develop performance measurement systems including usable cost
     and performance data as recommended in Recommendation #10.
     We believe such a refinement of cost data should eventually result
     in systems that allow enhanced decision-making such as the
     assessment of whether increased monitors would be cost-effective
     as recommended in Recommendation #9. FEMA officials would
     then have a sound basis for asserting that their current monitoring
     practice is the most prudent use of FEMA’s resources and taxpayer
     dollars or whether increased (or reduced) monitoring might be
     more fiscally sound. While we agree that FEMA should continue
     efforts to have adequate numbers of skilled and experienced
     employees in the disaster workforce, we believe there is a clear
     need for the deployment process to be adjusted to ensure that
     FEMA early responders include individuals with adequate
     experience and management skills to assist communities in the
     crucial early stages of planning and implementing debris removal
     activities, as is recommended in Recommendation #8. We will
     determine the status of these recommendations once we receive the
     detailed corrective action plan in FEMA’s 90 day letter.




FEMA’s Oversight and Management of Debris Removal Operations 
 


                           Page 36
 
 

Appendix A
Purpose, Scope, and Methodology

                    The purpose of this review was to determine whether opportunities
                    exist to improve FEMA’s management and oversight of debris
                    removal operations following major disasters. Specific areas we
                    examined included regional, state, and local debris planning;
                    contractor selection, utilization, and management; debris removal
                    and disposal operations; debris-monitoring operations; and general
                    program management and reporting functions.

                    We interviewed officials from FEMA headquarters, 10 FEMA
                    regions, 10 states and 5 municipalities that had recently
                    experienced a major debris-generating event, other federal
                    organizations, public policy organizations, and academia. We
                    reviewed all GAO and OIG reports issued in the past 5 years for
                    audits and reviews that included debris management within their
                    scopes of work.

                    We conducted fieldwork in the District of Columbia and
                    Tennessee. We judgmentally selected Tennessee to review debris
                    activities related to flooding in Nashville and other areas in central
                    and western Tennessee. The May 3–5, 2010, Nashville flooding
                    (FEMA DR-1909 TN) was the largest debris event during the time
                    we were conducting fieldwork.

                    We researched federal laws, regulations, policies, guidance,
                    published reports, and other information related to FEMA’s Public
                    Assistance program with an emphasis on Category A debris
                    removal eligibility and costs.

                    We conducted our review under the authority of the Inspector
                    General Act of 1978, as amended, and according to the Quality
                    Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency (now the Council of the Inspectors
                    General on Integrity and Efficiency).




               FEMA’s Oversight and Management of Debris Removal Operations 
 


                                          Page 37
 
 

Appendix B
Management Comments on the Draft Report
                                                                          U.S. O~purm'l'nt \lr IIO"'eland Seeu
                                                                          500 C Slre,·!. SW
                                                                          \\'",h"'lIlon.l)(: 2().j72




                                       DEC 2 3 2010
  Mr. Matt Jadacki
  Assistant Inspector General
  Office of Emergency Management Oversight
  Office of Inspector General
  U.S. Depanment of Homeland Security
  Washington, DC 20528

  Re:    Office of Inspcctor General Draft Report: FEMA      s Oversight and Ma/lagement o.rDebri~·
         Remova! Operaliolls

  Dear Mr. Jadacki:

  The Department of Homeland Security'S Federal Emergency Management Agency (FEMA)
  appreciates the opportunity to review and respond to the Office of Inspector Gencnll (010) draft
  report, FEMA 's Ovcrsiglll and MCII/agcmell! oj Debris Remova! OperaliulJ.I. FEMA is actively
                                                ojDebris
  resolving the issues identified in the audit.

  It should be noted that various sections of the draft report do not accurately characterize FEMA's
  responsibilities in relation to debris removal operations. The draft report often implies that
  FEMA controls and manages debris removal operations. However, the management of debris
  removal and monitoring operations is the primary responsibility of state, tribal and local
  governments (applicants). The PA Program is a supplemental assistance grant program, through
  which FEMA reimburses applicants for their eligible debris expenses. FEMA also provides
  applicants with operational and eligibility guidance and technical assistance with respect to
  debris removal activities.

  In recent years, FEMA has provided additional guidance to PA applicants on debris removal
  operations and stressed the import<lnce of debris management planning. From June 1,2007
  through December 31,2008, FEMA implemented the PA Pilot Program. authorized by Congress,
  which included incentives for the development of debris management plans, debris recycling,
  and the use of local government stafr (force account labor) to perfoml dcbris removal and
  monitoring operations. In 2007, FEMA iSSlled the Debris ManagemeJII Guide (FEMA-325),
  which is currently bemg updated. FEMA also updated its debris contracting guidance with the
  September 27, 2010, issuance of Recovery Fact Sheet 9580.201, Dcbris COllfracring Guidance,
  which includes a sample bid sheet. FEMA issued the Deb,.i~· Monitoring Guide (FEMA 327)
  electronically in December 201 0 to provide applicants with additional guidance. Hard copies of
  the Guide will be available for distribution in January 20 II. It should be noted th<lt FEMA
  encourages participation from its stakeholders by issuing drafts of its debris policies and
  publications for public comment prior to finalization. FEMA is also developing a computer
  based course on debris management planning in order to make this training more accessible and
  to reach more PA applicants.



                  FEMA’s Oversight and Management of Debris Removal Operations 
 


                                              Page 38
 
 

Appendix B
Management Comments to the Draft Report


 The OIG makes II recommendations in its draft report. FEMA's responses to those
 recommendations follow:

 Recommendation #1:

    •   Provide a provision of an additional S% federal cost share, not to exceed 100%, to
        applicants with a FEMA-approved debris management plan and at least two
        prequalified debris and wreckage removal contractors identified prior to a disaster.


 FEMA concurs with this part of the recommendation. However, current FEMA regulations do
 not authorize the PA Program to provide applicants with an increased federal share above the
 established cost share for each disaster declaration. FEMA is considering revisions to its
 regulations that would incorporate the increased federal share initiative implemented as part of
 the PA Pilot Program.

    •   Require disposal site identification to be part of the debris management plan.

 FEMA concurs with this part of the recommendation. FEMA's Debris Management Guide
 (FEMA 325), and its debris training courses stress the importance of disposal site selection as
 part of debris management planning. During the PA Pilot Program, FEMA required PA
 applicants to identify debris management sites (DMS) and final disposal sites in order to receive
 the increased federal share. FEMA did not approve debris plans that did not identify a DMS or
 disposal site. As mentioned previously, FEMA is considering revisions to its regulations to
 incorporate the increased federal share component of the PA Pilot Program, which would require
 PA applicants to identify DMS and final disposal sites in their debris management plans.

    •    Allow qualified states that have completed their own plan to approve local
        jurisdictions' debris disposal plans.

 FEMA is considering this part of the recommendation. FEMA encourages states to promote the
 development and maintenance of local debris management plans. As part of our considerations
 to revise FEMA regulations to incorporate the increased federal share component of the PA Pilot
 Program, FEMA will consider a significant role for states in the review and approval of debris
 management plans.

 R«ommendation #2: To the greatest extent possible, provide applicants, FEMA
 employees, and other appropriate officials clear and unambiguous rules, guidance, and
 procedures for debris operations, including checklists and sample contracts.

 FEMA concurs with this recommendation with the caveat below. FEMA has provided, and will
 continue to provide, debris operations guidance to FEMA PA staff, to Grantees, to applicants,
 and to the general public. This includes the Debris Management Guide (FEMA 325), which is
 currently under review to ensure that this guidance remains current, comprehensive, and
 incorporates lessons learned. FEMA is providing additional guidance on debris estimating and




                   FEMA’s Oversight and Management of Debris Removal Operations 
 


                                               Page 39
 
 

Appendix B
Management Comments to the Draft Report


monitoring in the Debris Estimating Field Guide (FEMA 329) and the Debris Monitoring Guide
(FEMA 327) both of which were issued in December 20 I O. FEMA also performs regular
periodic reviews of all PA policies and guidance to ensure that they are up to date, accurate, and
appropriately address current policy issues.

FEMA does not agree, however, that providing sample contracts is appropriate. Applicants are
responsible for procuring debris contracts and FEMA is not a party to those contracts. By
providing sample contracts, FEMA may create a false expectation of reimbursement of costs
even if applicants fail to follow competitive bidding procedures, the work performed is
ineligible, or the contract is not monitored effectively. In addition, FEMA cannot account for the
varying procurement requirements among states and localities. FEMA provides PA applicants
guidance on contract procurement in Recovery Fact Sheet 9580.201, Debris Contracting
Guidance. This Fact Sheet includes recommended provisions for debris removal and debris
monitoring contracts, includes a standard bid sheet, and includes guidance on evaluating
proposed equipment and labor rates. Additionally, FEMA reviews proposed debris contracts for
PA applicants, upon request.

Recommendation #3: Work with the states to provide a variety of readily accessible
training concerning rules, guidance, procedures, and recent developments in debris
removal, contracting, and cost containment.

FEMA concurs with this recommendation. FEMA currently has, and will continue to make,
debris training available through the Emergency Management Institute (EMI), FEMA Regional
Offices, and online. Current debris courses include the week long "Debris Management" (E202)
course at EMI, a one-day Debris Management Plan Development course conducted throughout
the Nation upon request, and the Independent Study Course "Introduction to Debris Operations in
FEMA's Public Assistance Program" (IS~632) available on CD-ROM. FEMA is currently
developing a computer-based training course on debris management plan development. States
may request additional training through their respective FEMA Regional Offices.

Recommendation #4: Provide force account labor reimbursement to cover local
governments' costs of employing workers to monitor debris collections and to remove
leaning trees and hanging branches, and encourage them to undertake such
responsibilities.

FEMA concurs with this recommendation. FEMA encourages PA applicants to use force account
labor to conduct their debris removal operations. FEMA currently reimburses PA applicants for
force account overtime hours. FEMA also reimburses applicants for the use of "applicant~owned"
equipment. Current FEMA regulations do not authorize the PA Program to reimburse force
account straight time hours. Under the PA Pilot Program, FEMA had the authority to fund an
applicant's force account straight time for debris removal operations. FEMA is considering
revisions to its regulations that would incorporate the force account straight time reimbursement
component of the PA Pilot Program.

Recommendation #5: Strengthen the requirements involved in monitoring contracts to
ensure that no relationships exist between debris coUection contaetors and monitoring




                   FEMA’s Oversight and Management of Debris Removal Operations 
 


                                              Page 40
 
 

Appendix B
Management Comments to the Draft Report

contractors, and that monitors are properly trained and capable of independent and
accurate performance.

FEMA concurs with this recommendation. FEMA updated its debris contracting guidance in the
September 27,2010 Recovery Fact Sheet 9580.201, Debris Contracting Guidance. The Debris
Monitoring Guide (FEMA 327) also provides applicants with monitoring guidance. Both
documents stress that debris monitors should not have a relationship with debris removal
contractors. Upon request from states, FEMA will provide debris monitoring training as part of
the technical assistance that FEMA offers to PA applicants.

Recommendation #6: Explore advanced technologies to supplement monitoring staff such
as GPS in trucks or surveillance cameras.

FEMA concurs with the recommendation in that FEMA supports applicants' use of relevant
technology to improve their monitoring operations and may provide reimbursement for utilizing
such technologies. However, debris monitoring is the primary responsibility ofPA applicants.
FEMA does not concur with the recommendation to the extent that FEMA is not a party to
contracts between applicants and contractors, and carmot require the use of advance technology
as monitoring tools. FEMA stays abreast of current technologies in order to provide appropriate
technical assistance to applicants when they are considering technology applications as a part of
their monitoring operation.

Recommendation #7: Assess weight-based rather than volume-based payment for debris
collection and investigate whether such systems could be efficiently linked to debris
payment accounting systems.

FEMA generally concurs with the recommendation, as FEMA currently accepts the use of
weight-based systems as a basis for reimbursement. FEMA acknowledges that weight-based
monitoring and payment systems have some advantages over volume-based systems. However,
as stated in the draft report, weight·based systems are not immune from potential waste, fraud, or
abuse and both weight-based and volume-based systems require proper monitoring and oversight
to be effective. FEMA can provide funding for the use of temporary scales during debris
operations and encourages applicants to utilize such systems where appropriate.

Recommendation #8: Modify disaster assistance employee deployment processes to ensure
that Incident Management Assistance Teams and other FEMA first responders include one
or more debris specialists with the experience and management skills to assist communities
in the crucial early stages of planning and implementing debris removal activities.

FEMA concurs with the objective of the recommendation. Shortly after an emergency or
disaster declaration, and in some cases in advance, FEMA deploys Debris Task Force Leaders
and establishes debris task forces to coordinate FEMA's debris operations. FEMA debris
specialists and monitors are also deployed to disaster areas in advance or shortly after a
declaration. FEMA also augments its field staff with debris contracting and monitoring
specialists from the U.S. Anny Corps of Engineers. Each of these individuals works closely with
impacted states and local applicants to provide them with technical assistance. However, from




                  FEMA’s Oversight and Management of Debris Removal Operations 
 


                                              Page 41
 
 

Appendix B
Management Comments to the Draft Report


FEMA's perspective, the best way to address this issue is to ensure that there are adequate
numbers of skilled and experienced employees in the disaster workforce, rather than modifying
deployment processes. FEMA will continue its efforts to increase the size of its resource pool
and speed the deployment of technical expertise to support applicants during the early stages of
planning and implementing debris removal operations.

Recommendation #9: Continue to refme cost data to determine whether having qualified
FEMA or local personnel present in aU debris towers, major staging areas, and on the
ground as roving monitors during significant debris-generating events would be cost-
                                                                               cost­
effective.

While FEMA fully supports appropriate and adequate monitoring as part of debris removal
operations, FEMA does not concur with this recommendation. FEMA advises PA applicants
that the size of the monitoring operation should be commensurate with the size and needs of the
debris removal operations. Applicants utilize different monitoring strategies based on the type of
contract, the geographic area and the types and quantity of debris. When using unit price
contracts for example, applicants should have monitors present at the pick-up, staging, and
disposal sites. FEMA employs a roving debris monitor methodology wherein debris monitors
make regular, repeated and random checks of debris operations. FEMA then focuses additional
attention and effort on debris operations with identified non-eompliance issues. FEMA also uses
additional debris monitors for special debris operations, such as the removal of contaminated
debris or debris removal from private property or waterways. This is the most prudent use of
FEMA's resources and taxpayer dollars and avoids unnecessary duplication of effort.

FEMA does not intend to station monitors at aU pick up, staging, or disposal sites as a standard
operating procedure. In addition, due to the difficulty in detennining cost savings from that
approach, it is unlikely that FEMA can perfonn a conclusive analysis to detennine if that
approach is more cost effective than FEMA's current practice.

 Recommendation #10: Establish clear requirements for prompt and efficient project
 closeouts.

FEMA responded to this recommendation in "Opportunities to Improve FEMA 's Disaster
Closeout Process, OIG-IO-49, January 2010. ,. FEMA has since developed a Project Closeout
Standard Operating Procedure (SOP) for use by PA staff at Joint Field Offices. However, the
draft report on debris confuses the completion ofa debris removal operation with project
closeout. These are two discrete actions. Project closeout refers to the reconciliation of project
estimates, data, documentation and invoices with the approved scope of work. It is an
administrative function that does not impede the completion of an applicant's debris removal
operation. In accordance with Title 44, Code of Federal Regulations 206.204, "Project
Perfonnance", debris removal must be completed within six months of the emergency or disaster
declaration unless there are extenuating circumstances for which the impacted state or FEMA
grant an extension. The draft report suggests that delayed project closeout encourages debris
removal contractors to remove ineligible debris. However, this is not the case and adequate
debris monitoring by the applicant prevents the removal ofineligible debris. Additionally,
FEMA encourages the use of unit price and lump sum contracts that pay contractors based on the




                  FEMA’s Oversight and Management of Debris Removal Operations 
 


                                              Page 42
 
 

Appendix B
Management Comments to the Draft Report


amount of debris removed rather than the use of time and materials contracts which pay
contractors based on the number of hours worked. The use of unit pricc or lump sum contntcts
along with debris monitors reduccs thc amount of incligible debris collected. Time and materials
contracts that do not have "tennination for cause" or "not to exceed'· clauses encourage debris
removal contractors to work slower or to remove ineligible debris.

 Recommendation #J 1: Dcvelop:1 pcrformance measurcmcnt that FEMA hcadquarters
 and regional personncl call usc to measurc, analyzc, and improve debris program
 performance. This should be designed for casy analysis of cost and performance data
 across regions, disasters, and contractors.

 FEMA a!,'TCCS with this approach in general. FEMA is cUlTently developing a Quality
 Assurance/Quality Control (QAlQc) tool that provides a fntmcwork to measure quality and
 performance throughout the entire PA Program, not just individual categories of work. The
 QAlQC tool is bascd on tcn quantitative perfonnance metries and one qualitative pccr rcview
 process, designed to measure key aspects of PA pcrformancc against ccrtain goals or
 benchmarks. These metrics, which are standardized across the pro!:>'Tam, are intended to provide
 a consistent method of measuring quality and performance across thc program, and to align
 efforts at all levels with the PA mission and needs ofPA stakeholders. This tool will be applied
 to FEMA's PA Program, including for projects (hat reimburse applicants for the cost of their
 debris operations, across all FEMA Regions and disasters.

In addition, FEMA is continually working to improve PA Program perfonmmce. For example,
FEMA has developed a Debris E~·fimalillg Field Guide to promote consistent debris estimating.
FEMA is also working with the U.S. Anny Corps of Engineers to enhance its hurricane debris
estimating modules. Additionally, FEMA is developing intemal sollware to improve its debris
estimating capacity. Since 2005, FEMA has worked to develop automated or digital systems that
will improve the collection of debris data in the field. FEMA is currently working to develop a
cost database of unit price debris removal costs to assist PA staff and llpplicllnts when
dctemlining whether or not a cost is reasonable. All ofthesc effol1S are aimed at improving,
streamlining and expcditing the PA process with rcgard to debris removal operations.

 Once again, thank you for (he opportunity to comment on the draft report. I look fonvard to
 working with you on future homeland security and emergency m;magement engagements.

                                            Sincerely,



                                           David J. Kaufman
                                           Director
                                           Office of Policy Planning and Analysis




                   FEMA’s Oversight and Management of Debris Removal Operations 
 


                                               Page 43
 
 

Appendix C
Major Contributors to this Report

                        Kaye McTighe, Director
                        Donald Norman, Auditor
                        Craig Anderson, Auditor
                        Stuart Josephs, Auditor
                        Kimberly Gilliland, Program Analyst




               FEMA’s Oversight and Management of Debris Removal Operations 
 


                                          Page 44
 
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Assistant Administrator, Response and Recovery
                      Chief Financial Officer
                      Director, Office of Management
                      FEMA Audit Liaison (Project Code 10-012-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               FEMA’s Oversight and Management of Debris Removal Operations 
 


                                          Page 45
 
 

  (a) Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


  (b) OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
